                                           NUREG/BR-0304 Volume 5, Number 2       September 2008


                                           USNRC


                                                      OIG INFORMATION
                                                           DIGEST

                                     What Is a Conflict-of-Interest?
                             Nuclear Regulatory Commission              contractors or anyone seeking business
Inside this issue:           (NRC) part-time and full-time employ-      with the agency. It is a basic obligation of
                             ees are subject to Federal laws and        public service that employees act impar-
                             regulations on ethics. These include       tially and not give preferential treatment to
Rules involving con-   1-2   the criminal conflict-of-interest stat-    any private organization or individual.
flicts-of-interest           utes (Title 18, Sections 201-209, of       Even the appearance of partiality or prefer-
                             the U.S. Code) and standards of con-       ential treatment violates Government regu-
OIG Cases              2-3
                             duct regulations found in Title 5, Part    lations and could result in disciplinary ac-
                             2635, of the Code of Federal Regula-       tion or civil sanctions. Therefore, it is es-
                             tions (CFR). Conflict-                     sential that NRC employees show no favor-
Other Agency Cases     4-6   of-interest is the term                    itism to contractors or even appear to be
                             used to describe                           partial in their interactions with contractor
                             situations where a                         employees.
                             Government em-
                             ployee’s personal                          NRC employees are encouraged to contact
                             (usually financial) in-                    an ethics counselor in the Office of the
                             terests clash with the                     General Counsel (OGC), a Regional Coun-
                             interests of the Gov-                      sel, or their supervisor for questions con-
                             ernment.                                   cerning contractor relationships or other
                                                                        situations that could be construed as a
                             Employees can encounter conflict-of-       conflict-of-interest or otherwise pose an
                             interest situations throughout the con-    ethical problem. Employees should ask
                             tracting process and through associa-      questions before engaging in these activi-
                             tion with licensee employees. The          ties if they are uncertain at what point
                             workplace often necessitates close         these activities become problematic. The
                             working relationships with contractors     following are activities that generally could
                             and licensees who are vital to this        constitute a conflict-of-interest unless al-
                             agency and who perform many impor-         lowed by law or regula-
                             tant services. However, employees          tion.
                             need to be mindful that contractors
                             and licensees are not NRC employ-          •   Accepting gifts from
                             ees and are not subject to the same        contractors, licensees, or
                             rules, regulations, and policies on eth-   anyone else who has
                             ics.                                       interests that the employee can affect.
                                                                        • Giving gifts to official NRC superiors.
                             NRC employees should always main-
                                                                        • Working on particular Government mat-
                             tain an arms-length relationship with
                                                                        ters affecting your financial interests or-
               OIG INFORMATION


What Is a Conflict-of-Interest? (cont. from page 1)

those with whom you have certain         comprehensive explanation of po-          to fix the security problems,
personal or business ties.               tential ethics violations, please visit   denied ever hearing the NRC
• Seeking or applying for em-            http://www.internal.nrc.gov/OGC/          inspector ask for employment
ployment with anyone if you are          ETHICS/ and other areas within the        or make the statement. In ad-
also participating in an NRC matter      OGC Web site.                             dition, OIG found that the NRC
affecting that party’s interest.                                                   inspector was conducting an
• Accepting outside employment           This Information Digest issue fea-        inspection when he received
with a licensee, contractor, or any-     tures a selection of NRC OIG cases        separate concerns that ques-
one in the nuclear field without         and cases from other agencies that        tioned the licensee’s employ-
prior written approval.                  involved conflict-of-interest issues.     ment practices. Subsequently,
                                                                                   the NRC inspector posed ques-
• Accepting anything of value in
                                                                                   tions about the employment
connection with the performance of       OIG Cases and Examples                    process, including where appli-
your official duties or as supple-
                                                                                   cations were posted. The li-
mentation of your Federal salary.        Inappropriate
                                                                                   censee employee did not have
• Representing anyone in the             Solicitation of
                                                                                   the employment information
private sector to Federal agencies       Employment by
                                                                                   readily available; therefore, the
or courts or sharing compensation        an NRC Inspec-
                                                                                   NRC inspector provided his
for any such representation made         tor to a Licen-
                                                                                   home address on a note to al-
by you or anyone else.                   see Not Sub-
                                                                                   low the employee to mail to
• Participating in partisan political    stantiated
                                                                                   him the information related to
activities while on official duty or                                               the employment issues. OIG
using NRC resources, including           OIG conducted
                                                                                   learned that it was acceptable
computer or phones, for such pur-        an investigation
                                                                                   for the NRC inspector to pro-
poses.                                   based on an allegation from a licen-
                                                                                   vide his personal mailing ad-
• Misuse of position, time, and          see employee that an NRC physical
                                                                                   dress to the licensee employee
equipment. (Employees should             security inspector inappropriately
                                                                                   to facilitate receiving inspection
not use any NRC equipment or             solicited employment from the licen-
                                                                                   information. Moreover, it would
supplies for a                           see staff. Specifically, the licensee
                                                                                   have also been appropriate for
personal busi-                           employee alleged that the NRC in-
                                                                                   the NRC inspector to have re-
ness or char-                            spector mentioned to the staff that
                                                                                   quested general information,
ity.)                                    he could fix the licensee’s security
                                                                                   such as employment applica-
                                         problems in exchange for employ-
• Disclosing                             ment. Additionally, the licensee em-
                                                                                   tions, from licensee employees
non-public in-                                                                     for personal purposes.
                                         ployee alleged that the NRC inspec-
formation with-                          tor provided the licensee staff with a
out authorization.                                                                 NRC Em-
                                         note containing the NRC inspector’s
                                                                                   ployee Sup-
                                         home address. Based on the note,
The NRC Office of the Inspector                                                    ports
                                         the licensee employee believed that
General (OIG) investigates various                                                 Contract
                                         the NRC inspector was interested in
types of conflict-of-interest cases                                                Bid
                                         a position.
involving outside employment is-
sues, ownership of prohibited se-                                                  An OIG in-
                                         OIG determined that the NRC in-
curities, contract issues, accep-                                                  vestigation
                                         spector did not solicit employment
tance of gifts and gratuities, social-                                             found that
                                         from the licensee staff. The staff, to
izing with contractors, and other                                                  an NRC employee had re-
                                         whom the NRC inspector allegedly
prohibited activities. For a more                                                  quested a sole source pur-
                                         made the comment about his ability
                                                                                   chase order to rent specialized
 Page 2
           NUREG/BR-0304 Volume 5, Number 2



OIG Cases and Examples (cont. from page 2)
research equipment at a univer-     NRC employee resigned from
sity science department where       the NRC.                             was employed by the nuclear lob-
the employee’s spouse was                                               byist, and instructed the employee
employed as department chair.       NRC Employee Works for              to return to work at the NRC.
The NRC employee had been           Industry Lobbyist Prior to
detailed to the university for      Resignation                         OIG reviewed Title 5 CFR
various periods between 1991                                            715.202(b), withdrawal of resigna-
and 2007 to conduct research        OIG initiated this in-                         tion, which states “An
in support of an interagency        vestigation based on                           agency may permit an
agreement between NRC and           information from an                            employee to withdraw
another                             NRC office that an                             his resignation at any
Federal                             NRC employee had                               time before it has be-
agency.                             accepted a position                            come effective,” and
                                    with a nuclear indus-                          learned that, because
After NRC                           try lobbyist while still                       the employee made no
contracting                         employed with NRC.                  attempt to rescind his resignation
officials                                                               prior to his effective date, he ef-
determined                          OIG found that the NRC em-          fectively was no longer an em-
a sole                              ployee began employment on          ployee of the NRC.
source purchase was not justi-      January 2, 2008, with a nuclear
fied and that the award should      industry lobbyist while in a use-   OIG also learned from the NRC
be competitively bid, the em-       or-lose leave status prior to his   Office of Human Resources that
ployee assisted in drafting the     planned January 6, 2008, resig-     processing out of an agency is an
university’s proposal, which        nation from NRC. The engi-          administrative function and not a
was signed by the employee’s        neer’s new position did not con-    regulatory requirement.
spouse and submitted to NRC.        flict with any work he was in-
The university was the only bid-    volved in at NRC.                   OIG learned that due to the
der and was awarded the pur-                                            NRC’s misunderstanding of the
chase order. The NRC em-            OIG determined that the em-         effectiveness of the engineer’s
ployee admitted assisting with      ployee submitted his resignation    January 6, 2008, resignation, the
the preparation of the proposal,    to NRC on December 21, 2007,        engineer was allowed to resign
including the detailing of the      effective January 6, 2008. How-     from the NRC effective January
costs associated with renting       ever, his manager did not accept    19, 2008.
the equipment. The NRC em-          the resignation and re-
ployee insisted that the equip-     quested him to return to
ment at the university was the      work after his resignation
best for this specific research     date to complete paperwork
work.                               needed to process the resig-
                                    nation. The employee, who
OIG found no indication that the    made no attempt to rescind
NRC employee or the spouse          his resignation, returned on
benefited financially from this     January 7, 2008, to complete the
NRC purchase order, or that an      required paperwork.
attempt was made to conceal
the spouse’s position at the uni-   On January 9, 2008, the supervi-
versity from NRC officials. The     sor learned that the engineer

 Page 3
               OIG INFORMATION



Other Agency Investigations
Other Agency                              to properties owned and operated           Former Massachusetts
                                          by NDS.                                    Official Accused of
Investigations                                                                       Negotiating Employment
                                          The information alleges that during        With Firm While Awarding
Ohio Mayor Charged With                                                              Grant Payments to Firm
                                          the period 2001 through 2004, the
Concealing Financial Interest in                                                     Clients
                                          Mayor operated and received in-
Son’s Business                                                                       http://www.usdoj.gov/oig/
                                          come from Lawn Mowing Service, a
http://cleveland.fbi.gov/
                                          sole proprietorship in the name of         semiannual/0705/ojp.htm
dojpressrel/2006/mailfraud121106.htm
                                          the Mayor’s son, which mowed
                                          lawns and removed snow for NDS,            A joint investigation by Federal
The Northern District of Ohio filed a
                                          NDS Management, and other cus-             and State officials led to alle-
criminal information against an Ohio
                                          tomers. These customers paid               gations that a former Director
mayor, charging him with five
                                          Lawn Mowing Service more than              of Programs at the Massachu-
counts of mail fraud and three
                                          $262,068 from                              setts Executive Office of Public
counts of filing false tax returns.
                                          2001 through                               Safety violated State ethics
The mail fraud counts allege that
                                          2005. The infor-                           laws by negotiating employ-
while mayor he deprived the citi-
                                          mation also al-                            ment with a company while
zens of the city of the intangible
                                          leges that the                             simultaneously awarding De-
right of his honest services by con-
                                          mayor knew that                            partment of Justice Office of
cealing a conflict-of-interest arising
                                          in his capacity as                         Justice Programs (OJP) grant
from his secret interest in his son’s
                                          mayor, he had a                            funds to clients of that com-
lawn mowing business. As mayor,
                                          conflict-of-interest                       pany. The Massachusetts
he made decisions affecting the
                                          as a result of the income he re-           State Ethics Commission filed
funding of Neighborhood Develop-
                                          ceived from his son’s business and         an Order to Show Cause ad-
ment Services (NDS), which, in
                                          that he intentionally attempted to         vising that the Commission will
                              turn,
                                          conceal the conflict-of-interest by        take disciplinary measures
                              hired his
                                          (1) reporting income (although not         against the former Director of
                              son’s
                                          all the income) from the lawn mow-         Programs unless he provides
                              lawn
                                          ing service on his son’s tax returns       justification
                              mowing
                                          (resulting in application of a lower       for his ac-
                              busi-
                                          tax rate on the income) and (2) in-        tions. The
                              ness.
                                          tentionally failing to report his inter-   Order to
                              The tax
                                          est in and his income from Lawn            Show
counts allege that the mayor failed
                                          Mowing Service on his annual Ohio          Cause al-
to report his income from that busi-
                                          Ethics Commission Financial Dis-           leges that
ness on his Federal tax returns.
                                          closure Statements for the years           the former
                                          2001 through 2005.                         Director of
During the time that he was Mayor,
                                                                                     Programs negotiated employ-
NDS was a non-profit Ohio corpora-
                                          If convicted, the defendant’s sen-         ment with a public safety con-
tion which was formed in 1985 to
                                          tence will be determined by the            sulting firm while at the same
pursue the development of afford-
                                          Court under the Federal Sentencing         time he approved nearly $1.12
able housing, an improved down-
                                          Guidelines which depend upon a             million in OJP grant payments
town, and a stronger local econ-
                                          number of factors unique to each           to clients of the firm.
omy. NDS Management, funded by
Federal grants that passed through        case, including the defendant’s
                                          prior criminal record, if any, his role    The investigation found that
the city, was a for-profit company
                                          in the offense, and the characteris-       during his tenure as Director of
that provided management services
                                          tics of the violation.                     Programs, he made numerous
Page 4
            NUREG/BR-0304 Volume 5, Number 2



Other Agency Investigations (cont. from page 4)
relationships with the consulting       ernment. The UNICOR general            Two Cases Involving the
firm, which earned approximately        manager retired 3 months later         Broadcasting Board of
$2 million in fees for securing these   and began working for the ven-         Governors
grant funds. After the Director of      dor, collecting $20,000 in salary      http://oig.state.gov/documents/
Programs resigned from his posi-        over the next 5 months. Sen-           organization/88720.pdf
tion with the Commonwealth of           tencing in the Western District
Massachusetts he accepted a posi-       of Tennessee is pending.               The Department of State OIG
tion with the consulting firm.                                                 conducted a joint investigation
                                                                               with the Federal Bureau of In-
                                        DEA Federal Agent Sen-                 vestigation into allegations of
UNICOR Manager Arrested for
                                        tenced for Accepting Checks            possible kickbacks being re-
Negotiating Post-Government
                                        From Vendor                            ceived by a Broadcasting Board
Job with UNICOR Vendor
                                        http://www.usdoj.gov/oig/              of Governors (BBG) employee
http://www.usdoj.gov/oig/
                                        semiannual/0711/dea.htm                from two vendors and knowing
semiannual/0711/bop.htm
                                                                               that it was a conflict-of-interest
                                        In its March 2007 Semiannual           and three counts of making false
An investigation by DOJ OIG’s
                                        Report to Congress, DOJ re-            statements.
Washington Field Office led to the
                                        ported on a joint investigation
arrest and guilty plea of a Bureau
                                        by the OIG’s Los Angeles Field         On February 13, 2007, the sub-
of Prisons Federal Prison Indus-
                                        Office and the Drug Enforce-           ject pled guilty to the conflict-of-
tries, Inc. (UNICOR) general man-
                                        ment Administration’s (DEA)            interest charge, admitting that he
ager, previously assigned to the
                                        Office of                              knowingly and willfully received
UNICOR Central Office in Wash-
                                        Profes-                                unauthorized payments from the
ington, DC, to a conflict-of-interest
                                        sional Re-                             vendors in the amount of ap-
violation. UNICOR is a self-
                                        sponsibility                           proximately $112,000. On
sustaining, self-funded corporation
                                        that re-                               March 20, 2007, BBG sent a let-
                established in 1934
                                        sulted in the                          ter to the employee proposing
                by executive order
                                        arrest of a DEA contracting offi-      the termination of his employ-
                to create a volun-
                                        cer on charges of corruptly            ment with the agency. On April
                tary real-world work
                                        profiting from his employment          18, 2007,
                program to train
                                        as a Federal agent and making          the em-
                Federal inmates.
                                        a false statement. The joint           ployee was
                Investigators devel-    investigation developed evi-           sentenced
                oped evidence that      dence that the contracting offi-       to 27
                                        cer received for his personal          months in
in early 2004 the UNICOR general
                                        use 21 checks totaling $13,442         jail and 3
manager negotiated a post-
                                        from a DEA vendor whose con-           years of
Government position with a UNI-
                                        tract he managed. The con-             supervised
COR vendor with whom he was
substantially involved in his capac-    tracting officer also failed to dis-   probation
                                        close on his financial disclosure      upon his
ity as general manager. After ac-
                                        form the funds he received             release. He was also ordered to
cepting an offer of future employ-
                                        from the vendor. The contract-         pay a $5,000 fine and an addi-
ment, the UNICOR general man-
                                        ing officer was sentenced on           tional $3,000 in legal fees for his
ager directed a $250,000 sole
source contract to the vendor with-     conflict-of-interest charges to 2      court appointed attorney.
out disclosing his financial interest   years probation and ordered to
                                        pay a $13,517 fine and perform
in the matter to anyone in the Gov-
                                        50 hours of community service.

  Page 5
           USNRC



Other Agency Investigations (cont. from page 5)
In the second case, a senior BBG employee            NRC Ethics Advice
oversaw the disbursement of $92,000 in training
grant funds to a grantee, which then subcon-         You are encouraged to consult an ethics coun-
tracted with a company headed by the BBG em-         selor in the Office of the General Counsel, your
ployee's wife. On January 14, 2004, the BBG          regional counsel, or your supervisor before engag-
                        employee pleaded guilty      ing in an activity that you feel might result in a vio-
                        in U.S. District Court to    lation of the ethics laws or regulations or if you
                        one count of violating 18    have any questions relating to any other ethics
                        U.S.C. 208. The em-          issues. You can find the names and e-mail ad-
                        ployee was terminated        dresses of the ethics counselors on the “Ethics”
                        from his position with BBG   Web site on the NRC Internal Home Page. This
                        and was debarred from        Web site also contains the major ethics regula-
                        doing business with BBG      tions, NRC Management Directives, financial dis-
                        for 3 years. On May 6,       closure forms, the Prohibited Securities list train-
                        2004, the employee was       ing modules, and ethics articles.
sentenced to 3 years probation and 50 hours of
community service. He was also fined $1,000,
ordered to pay restitution of $15,064, and had to
pay a $25 special assessment.




          OIG HOTLINE                                 Go to this Web site for
                                                      answers and training concerning
                                                      conflict-of-interest.
           800-233-3497
                                                       www.internal.nrc.gov/
         We’re on the Web!!                              OGC/ETHICS


Page 6
